Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




SCHOOL-BASED HEALTH CENTERS
     AND MANAGED CARE




          DECEMBER   1993   OEI-05-92-00680
              EXECUTIVE                        SUMMARY


PURPOSE

This inspection describes school-based health centers and their degree of coordination
with managed care providers.

BACKGROUND

According to sumeys and estimates, there are between 200 and 500 school-based
health centers across the country, and the number of school-based health centers is
increasing rapidly. These school-based health centers vary depending on the
community, but the vast majority are located in middle or secondary schools. Visits
for physicals and mental health needs are the most common services provided in
school-based health centers.

This inspection focuses on adolescents due to their unique health needs and the fact
that most school-based health centers seine this age group. However, school-based
health centers are also proliferating at the elementary school level. Many of the ideas
discussed here are germane to elementary school-based health centers as well.

School-based health centers often receive funding from a combination of public and
private sources. The most common sources of private funding are foundation grants
and private health insurance. The largest Department of Health and Human Services
(HHS) financial contributions come from Title V Maternal and Child Health Block
Grants (providing an estimated 16 percent of school-based health centers’ funding),
communi~ health center funding (6 percent), and Medicaid (2 percent).

At the same time that HHS supports school-based health centers to promote access to
health care and better public health, it also supports the growth of Medicaid managed
care delivery systems to promote better access to quality health care. Thirty-two
States and the District of Columbia have some type of managed health care option for
Medicaid recipients. A common feature of managed health care plans requires
recipients to be “locked in” to one medical plan or provider. “Locked in” recipients
cannot normally receive non-emergency treatment from providers outside of the plan.
As both managed care and school-based health services expan4 adolescents enrolled
in managed care plans will be more likely to have access to school-based health
centers and the need for coordination will grow.




                                          i
FINDINGS




On-site school-based health centers increase access to health care and specialize in

providing semices aimed at adolescents. Staff at school-based health centers are

trained in dealing with adolescents and problems unique to their age group. By going

“where the kids are,” school-based health centers surmount a major barrier to health

care access even managed care providers cannot address.


Early assessments of school-based health centers are promising, and anecdotal

evidence supports the idea that school-based health centers are an appropriate way to

deliver services to adolescents. But the literature on school-based health centers

rarely gives a national perspective and provides little information about health

outcomes for adolescents.


Howeveq liitk codhahm “     *bezn?t?en    managed mpvtiandscM-bared
J&?ahhcentas.

Few agreements, formal or informal, exist between managed care providers and
school-based providers. Little exchange of medical information takes place between
managed care providers and school-based health centers. k a result neither
managed care providers nor school-based health centers can coordinate or manage all
the care given to their patients.

Respondents describe multiple barriers to coordination between managed care
providers and school-based health centers. These barriers include communication,
finances, legal issues, and confidentiality of medical records. Most respondents believe
there will be negative consequences if school-based health centers and managed care
providers do not coordinate.




In communities where school-based health centers have agreements with local
managed care providers, all parties can benefit from increased capabilities to deliver
managed and coordinated care.




 The HHS has a hand in both managed care and school-based health centers in a              ~
 variety of agencies. There is no focal point in either the Public Health Sexvice or the
 Health Care Financing Administration for outside entities to contact or to provide a
 locus for decisionmaking.



                                             ii
RECOMMENDATIONS





AGENCY COMMENTS

We received comments from the Health Care Financing Administration and the Public
Health Service. Both agencies supported the recommendations, suggested pertinent
clarifications and identified additional issues regarding school-related and youth health
programs. The complete text of the Health Care Financing Administration comments
are included in Appendix G. The Public Health Service comments are included in
Appendix H. We made appropriate revisions to the report based on their comments.




                                            ...
                                            111
                            TABLE                    OF CONTENTS

ExEcuTlvE              Sun4MARY

INTRODUCI’ION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


    �

                 School-based health centers increase access

                 to health care for adolescents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


    �

                 However, little coordination exists beween managed

                 care providers and school-based health centers . . . . . . . . . . . . . . . . . . . 11


    �

                  Some initial efforts to coordinate demonstrate

                  potential benefits for adolescents, managed care

                  providers andschool-based health centers . . . . . . . . . . . . . . . . . . . . . . 15


                  Even though school-based health centers and managed

                  care are expanding rapidly, HHS has no focal point

                  coordinating departmental programs and activities

                  in these areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...18


RECOMMENDATIONS                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...20


AGENCY CO MMENI?S                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...22


APPENDICES

f%       School-based health center andmanaged                       care respondents            . . . . . . . . . . . . . . A-1


B: Other school-based health center, adolescent health
   ormanaged care contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..s1

c        Selected bibliography on school-based health centers
         and adolescent health . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..*C-l

D	 Proposed New York State school-based
   health center standards andoperations . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l

E. Example of school-based health center and managed care protocols                                             . . . . . . . E-1


F        Oregon lawandimplementing                    procedures requiting coordination                   . . . . . . . . . . F-1


G        Health Care Financing Administration                      response tothedrafirepofi                  . . . . . . . . G-1


H        Public Health Service response tothedrafirepofi                              . . . . . . . . . . . . . . . . . . . . H-1

                                  INTRODUCTION


PURPOSE

This inspection describes school-based health centers and their degree of coordination
with managed care providers.l

BACKGROUND

Mod-based         hedh     C-


Delivery of health care to children and adolescents poses a difficult challenge to
communities, particularly in low-income areas where access to care may be minimal.
However, since the mid-1980s, some communities have addressed the problem by
setting up primary health care for children and adolescents in school-based health
centers. According to surveys and estimates, there are between 200 and 500 school-
based health centers across the country, and the number of school-based health
centers is increasing rapidly. These school-based health centers vary depending on the
community, but the vast majority are located in middle or secondary schools.

Nearly all school-based health centers provide general, primary health care ranging
horn general physicals to chronic illness management. 2 Many school-based health
centers also provide a health curriculum that is age and developmentally-appropriate.3
Visits for physicals, acute illness, psychosocial and mental health needs are the most
common semices provided in school-based health centers.

Sthuol-lbfkedM!7vkes

         heauh

In addition to communities establishing school-based health center% many community
health centers and hospitals have also entered into agreements with local schools to
provide children and adolescents access to comprehensive health care. By November
1~    240, more than one-third of the community and migrant health centers and

   1     Scmeptopicn$        ??tolhif(ucoard       txuuwillrq?r
                                               bwdcarq            muafmanaguic
                                                                         amfwpwposesofthe~

   2       Owhaifthcxhoai-lmred     hedh CcntuSO)qi?the following medical S?wiccs 4#umcntand     r@Yndto ccmnrAn@M
Syuemlmdptykim%       chmicilht=tnamzgt?ne?u     diqwi$andueomenl      ofmimorrnjuricg Edyond P@iodk Saeenhg

l)iogwsdcj and T~        swvicc+ genendp@ica4 &?ucdogicamw         hmdwnk%        inidalandJwow-up ewhadom@biKh

Columlmelhod% labommy test$pegna?q andpmo@cc=             @=4&h             d-gof-d$=@)’~d

dise@ed@plir anduwttnau         2% majotiy of schooL-bad hcdh cerum O* du@%Angc_imd                   e&wadonalwvice.t

coun@ngon binhconudtneth@          drugandsdmance abuupn+7ams fatni&coumeling htxdtheducadom mental heahhond

pYchmocti Coulweiing ~           e&otiq   pamuing educ~      pmgnanq counseling sueducadon inachsroomseaing     =xal@     .

Cowm?iing and m“@t n?tiucdonpm#anu


    3      [nadd&on to@rtibyxhool-bmuih        edthc~      tnonyschoA ofer&ahhprograwu ondacdvidcs menhancetik&
of school-aged po~          &   as nwidow **d@=d~Fwom                            m envbvment~     Ofdlug% Vkimc:
poihuo7wm       There aleaisO adolescent heawl@9rls oimedataciliOing Main@dng andilqmwingth eheahhof adoksccntsnol
limited 10 adokxena autnding school



                                                             1
health care for the homeless programs funded by the Department of Health and
Human Smrices (HHS) had arrangements with local schools and school districts to
care for poor and underserved populations of school-aged children.

For purposes of this report, unless otherwise noted, any further discussion of school-
based health centers applies to school-linked health services as well. In addition, we
will focus on adolescents because most school-based health centers serve this age
group. However, school-based health centers are also proliferating at the elementary
school level, and many of the ideas discussed are germane to these school-based
health centers as well.

Mmged     Cm


At the same time that HHS supports school-based health centers to promote access to
health care and better public healt~ it also supports the growth of Medicaid managed
care delivery systems to promote better access to quality health care. Thirty-two
States and the District of Columbia have some type of managed health care option for
Medicaid recipients. Private managed care plans exist in 46 States and the District of
Columbia.

A common feature of managed health care plans requires recipients to be “locked in”
to one medical plan or provider. “Locked in” recipients cannot normally receive non-
emergency treatment from providers outside of the plan. This ‘lock in” means that
managed care providers can coordinate the care given and be certain of its quality and
its cost effectiveness.

Managed care plans offer a wide range of medical specialties and semices for its
members. By assigning each patient a primaxy care case manager, patients should
have increased access to primary care. Managed care providers inform enrolled
patients that the plan is responsible for all their medical care.

Although managed care can take different forms, generally managed care describes a
health care deliveg system where:

   �	
        care is arranged with selected providers to provide comprehensive   health care
        services to members,

   �
        health care providers are chosen based on selection standards,

   �
        plans have formal programs for ongoing quality assurance and utilization
        review,

   �
        members have significant incentives to use providers associated with the plan.4




                                             2

AU mainstream health care delivery systems, whether family physicians, pediatricians,
or managed care providers, must deal with the dilemma of adolescent health.
Adolescents present special heaith needs to medical caregivers. Chief among these
needs is care that is confidential, convenient, comprehensive, and age appropriate.

Adolescents are generally perceived as healthy, but this perception maybe deceptive.
In its 1991 study on adolescent health, the U.S. Office of Technology Assessment
(OTA) estimated that 20 percent of adolescents have at least one serious health
problem. The OTA states that many adolescents suffer from a diagnosable mental
disorder. Prior studies have also described other teenage morbidities including youth
drug and alcohol abuse and sexually transmitted diseases.

For myriad reasons, most adolescents do not seek routine medical care, and often will
wait for problems to become severe before soliciting treatment. One consequence is
that adolescents see office-based physicians less than any age group. 5 In some ways,
the nature of adolescence may present a barrier to health care. Adolescents often do
not keep medical appointments.b

The OTA descnies many difficulties adolescents have accessing and receiving the
health care they need. Among these difficulties:

       �	
             “...access problems that affect adolescents particularly - for example, lack of
             money to pay for semices or transportation, lack of convenient hours, concerns
             about confidentiality, and perceived lack of approachabili~ of mainstream
             semices.”

  �	
             “...there is some evidence that many adolescents are unwilling to visit their
             private physician for concerns about sexuality, substance abuse, or emotional
             upset and also would be unwilling to seek care for these problems with their
             parents’ knowledge.”

       �
             ‘“Primary care physicians appear to have difficulty in ident@ing adolescents who
              have behavioral emotional, and substance abuse problems.”

        �	
             “...those adolescents who seek health care are likely to see providers who have
             not been specially trained to work with them.”




   5      Klein Jonahon D., Slap, Gail% ELua, Anhw R, schonbus S. Kcnnc4   “ACCU! W   Hdh   Can @AdohcuuF,     Jti
ofAain2scau Hem Vo/ 13, #~ Mad 1~~ p.~6t

        6     l%epmaiiing vielvofmpondumfw   fhissu@ wwLhaiuou   arc"ofrhe?7lowm"   ondthotadoluct??us ”donotwalk
 around *       appoinmunt book”



                                                           3
haddition,    health care coverage forteens is problematic. Oneinseven    teens has no
health insumnce. Where private health insurance covem adolescents, restrictions often
limit sexvices for teens. Forexample, matemi~related       eWenses arenot included for
one-third of teens covered by their parents’ employment-based health plan.

These represent serious obstacles that impede access to basic health care for
adolescents. Reducing the occurrence of many serious adolescent health problems
depends on overcoming these barriers.

Even ?nana&?tiCWV       dekiv~     syste?n$ dai@ed         to incnmse acci?ssandaoldimwhealf’h
carq have difiady      nuzthg      adokscent hedh          cm      needt


While managed care plans offer comprehensive health care, most, like their fee-for-
service counterparts, offer few counseling sexvices geared to adolescents. According to
OT& “...Medicaid and many private ... insurers place limitations on reimbursement for
mental semices that they may not place on semices for physical problems.” So drug
and substance abuse, nutrition, reproductive, and sexuality counseling is not provided
routinely through managed care providers.

Because adolescents’ problems may be complez and not strictly of a physical nature,
diagnosis is difficult. Because treatment of these problems may require dealing with
more than one health or related system, case management services and referrals for
social sexvices may be necessary. But managed care plans do not provide these
“special needs” sexvices, and instead must refer adolescents for these sewices.

Recognizing the difficulties promoting health care and wellness among adolescents,
some managed care plans have developed special adolescent clinics. Some have also
designed programs addressing a specific health problem (e.g., AIDS). These
approaches have had varying degrees of success.

Funding sounxs for school-based health cemm

The school-based health centers often receive funding from a combination of public
and private sources. The most common sources of private funding are foundation
grants and private health insurance. Public funding sources include: State health
departmen@ city and county health departmen~ school districts, and HHS. The
largest HIIS financial contributions come from Title V Maternal and Child Health
Block Grants (providing an estimated 16 percent of school-based health centers’
funding), community health center funding (6 percent), and Medicaid (2 percent).
School-based health centers have also been very creative in attracting in-kind
contributions, such as mental health and substance and alcohol abuse services.’



   7	   Sources of @nalng rnf~’m     Oflce of TKhno@     Assamwu     ~     Adokxau    Hea@ 1991, vo&4mcm p. 4a
        The School-Bared Adokcuu   Health Cam Program   ACCCSS~ c~          ‘W   Schcwi-lnwd Hca&h .%nicu for Adolcscau$
        F(ZLL1993p.  1.



                                                          4
In the pasg HHS,funds have comprised a relatively small portion of funding for
school-based health centers. Recently, however, there have been efforts to increase
HHS involvement with school-based health centers. In 1987, the Centers for Disease
Control and Prevention (cDC) created the Division of Adolescent and School Health
to identify and monitor major health risks among youth and to implement national
programs to diminish these risks. In conjunction with the Carnegie Foundation, CDC
is funding an initiative at the Columbia University School of Health Policy which has
brought together a national workgroup to identify barriers to establishing school-based
health centers and to develop recommendations for a core set of semices for school-
based health centers.

In 1991, the Adviso~ Council on Social Security recommended that the Federal
Government help States establish health clinics in or near elementary schools, and
share with States the costs of providing health and dental semices for poor children.
The HI-H and the Department of Education recently published the ‘Tractical Guide to
School-linked Service Integration.” In addition, the Interagency Committee on School
Health was created under the leadership of the HHS Office of Disease Prevention and
Health Promotion as a joint activity of HHS and the Department of Education. Staff
support for this effort is provided by the Office of Disease Prevention and Health
Promotion and the Department of Education’s Office of Elementag and Secondary
Education. Representation from HHS, Department of Education, the Department of
Agriculture, and a number of other Cabinet-level departments and Federal agencies is
included on the Interagency Committee on School Health.

Another effort demonstrating HHS support for school-based health centers comes
from the Health Care Financing Administration (HCFA). The HCFA encourages
schools to become providers for Medicaid’s Early and Periodic, Screening, Diagnostic,
and Treatment (EPSDT) program.

EPSDT

The EPSDT program was created in 1967 to provide initial and periodic examinations
and medically necessary follow-up care for Medicaid-eligible children. The Omnibus
Budget Reconciliation Act of 1989 expanded EPSDT coverage for most Medicaid-
eligible children under age 21. In July 1990, HCFA established participation goals for
EPSDT requiring that States screen 80 percent of eligible children by 1995.

 To help States meet these goals, HCFA is encouraging States to enroll schools as
 EPSDT providers and recently published ERSD~ A Guzi.iefor Educational Programs.
 This guide provides school officials with information about State Medicaid agencies,
 the EPSDT program, and the benefits of EPSDT participation.




                                             5

METHODOLOGY
We conducted an extensive literature review on school-based health centers and
relevant legislation. Within HHS, we held discussions with officials in HCFA and the
Public Health Service (PHS). We attended a Child Health Conference that addressed
managed care and child health issues. Representatives from HCF~ PHS, managed
care consulting firms, State Medicaid agencies, State offices of Maternal and Child
Health, State and local health departments, and foundations concerned with child
health attended the conference. In addition, we attended the annual conference of
the Society for Adolescent Medicine and a meeting of the Ad Hoc Committee on
Health Promotion Through the Schools.

Using HCFA data on managed care providers and from existing literature and experts
in the field of school-based or school-linked health, we identified 10 communities
where both school-based health centers and managed care providers exist. Our
criteria for selection gave priority to communities where school-based health centers
and managed care providers were working toward agreement. We also favored
communities that would give us a geographically diverse sample. To obtain detailed
descriptions of how school-based health centers coordinate with managed care
providers, we used in-depth, structured personal interviews with representatives of
both school-based health centers and managed care providers in these communities.

To gain a State level perspective, we contacted officials in all States with both
Medicaid managed care and school-based health centers. We spoke with Medicaid
and Maternal and Child Health officials in 32 States and the District of Columbiaa to
discuss managed care coordination with school-based health centers. We used in-
depth, structured telephone interviews for this purpose. From all respondents, we
requested information on the barriers to coordination between school-based health
centers and managed care providers and the methods for overcoming these barriers.

In total, we used structured interviews with 88 respondents. Twenty-two were school-
based health center and managed care respondents, while 66 respondents were from
the States. We also gathered information during open-ended discussions with 27
others in the fields of adolescent health, school-based health centers, and managed
care. No standards for measuring school-based health center processes and outcomes
exish available data varies by community. Our evaluation is based, perforce, on
qualitative data. Such data does not provide conclusive proof regarding program
effectiveness, but does highlight promising leads and identi~ areas needing further
study.

Although we focused on specific groups of respondents, our findings have much wider
implications. Most of our discussions with managed care respondents related to
Medicaid managed care, but our findings are relevant to all managed care plans whose


   8   T& Diwict of Columbia mpondcnn will be counted witi State respondents in this report



                                                           6
enrollees can receive services at school-based health centers. Because the
preponderance of school-based health centers are located in high schools and middle
schools, and the serious health problems relating to adolescents, our discussions with
respondents focused on adolescent health and school-based health centers for
adolescents. As more communities create school-based health centers to meet the
health needs of younger children, the many of the issues discussed in this report will
apply at the elementary school level.

Appendix A lists the managed care and school-based health center sites visited.
Appendix B lists other contacts in the fields of school-based and adolescent health,
and managed care. Appendix C is a selective bibliography which includes references
we found particularly valuable in this study.

We conducted our review in accordance with the Qualify Standards for Inspechons
issued by the President’s Council on Integrity and Efficiency.
                                FINDINGS


Mainstream health care delivery in the United States is undergoing profound change.
Managed care and school-based health services represent some of this change.

National health care reform may include both managed care and school-based health
centers. Either managed competition guaranteeing health insurance, or a universal
health care system increases the demand for access to primary health care provided by
these current delivery systems. Managed care with its aggregate of physicians and
related services, and school-based health centers with their unique abilities to treat
adolescents, offer mechanisms to provide this primary medical care.

With the health care landscape changing rapidly, the timing for creating new,
productive linkages may never be better. Although this report focuses on school-based
health centers and coordination with managed care providers, it is logical that other
medical delivery systems need to develop similar connections that ensure patient
access to services and exchange of medical information.


SCHOOLBASED  HEALTH CENTERS INCREASE                    A-TO           HEALTH CARE
FOR ADOLEXENTS.

on-de   school-based health centem inmase access 10 health cam

Overwhehn@ly, State agency respondents (91 percent) feel that school-based health
centers improve access to health care. Many respondents cite the clinic’s location as
being critical in treating adolescents. By going “where the kids are;’ school-based
health centers surmount a major barrier to health care access even managed care
providers cannot address.

Being physically located in the school where adolescents spend much of their day
serves to encourage clinic usage. This access to health care is illustrated by the repeat
visits made by adolescents. The Robert Wed Johnson (RWJ) Foundation’s School-
Based Adolescent Health Care Program estimates that in the 1990-91 school year, 87
percent of the visits made to their grantee school-based health centers were repeat
visits.

Parents of adolescents in schools with school-based health centers appreciate the
health care access provided their children. The RWJ reports 71 percent of parents
consented to having their child treated in school-based health centers in 1990-91, an
increase from 34 percent only 2 years prior.




                                             8

Parental or guardian consent is the only requirement for students to enroll in school-
based health centers. All school-based health centers we visite~ and all mentioned by
State agency respondents, treat all students in need of care if a parent or guardian has
signed a consent ‘form authorizing treatment. Without school-based health centers,
many adolescents would not receive health services since they are not covered by
private insurance or Medicaid. For example, New York State estimates that in 1992,
58 percent of the students treated in their 122 school-based health centers were
uninsured.



In addition to primary health care, the school-based health centers provide specialized
services aimed at adolescents. These semices include educational, preventive, and
confidential services. The school-based health centers can provide health and wellness
training in a classroom setting to educate many students, or use individual counseling
sessions, whichever is appropriate. The school-based health centers use outreach
approaches to attract students to their clinics. These outreach efforts vary from
newsletters to posters to word-of-mouth.

One form of outreach school-based health centers use effectively is follow-up and case
management for students. The school-based health centers, by virtue of their location
and ties to the school, can call in the student for folIow-up treatment or to provide
reminders to keep their medical appointments. According to school-based health
center respondents, adolescents referred to outside health providers by school-based
health centers have a high rate of completion for referrals.

Staff at school-based health centers are trained in dealing with adolescents and
problems unique to their age group. The staffs are often multidisciplinary to deal with
more complex cases. Theie multidisciplinary teams draw providers from the fields of
medicine, nursing, social work psychology, health education, and nutrition.

One of the school-based health center staff becomes the case manager, directing the
patient to all necessaq services, ensuring appointments are kep~ and following up on
any outside referrals. In depicting how this school-based health center case manager
functions, a Journal of the American Medical Association article describes a Louisiana
nurse practitioner’s actions: ‘W they’re positive (pregnant) ... she immediately refers
them to the Teen Advocacy Program, and then they immediately hook up with the
nurse midwife program at the local hospital, and they immediately begin good prenatal
care with close, ongoing follow-up at schoo~ at home through the social worker, and at
the hospital.’~

                                         ,




   9   Go-     Marsh   E, “Schd-ik?d   Hcnldt Clhiu Pmvi& Esmuud Car&, J~   Vol 26S,#19,Moy 151991,
                                                                                                  p.2460.


                                                     9
Repn&mh     agree thatschod-based   heaithcen&m can*someseWiCCs             nmt!dy

thanarnanagui cmptwidez


All managed car~, school-based health center, and State agency respondents feel that
certain services can be delivered more easily by school-based health centers. Some
respondents attribute this ease to the school-based health centers’ physical proximity
to the students, rather than special expertise of school-based health centers.

Respondents disagree on which services are more easily provided in school-based
health centers versus a managed care setting. Some of the differences are due to local
variations in school-based health centers and the services they offer. Routine health
screenings, mental health, reproductive counseling, and treatment of psychosocial
problems were most often cited by respondents as areas where school-based health
centers were able to provide services more easily to adolescents.

The HCFA encourages States to use school-based health centers to perform EPSDT
screenings. Even though many Medicaid children are covered by managed care plaxM
HCFA recognizes that school-based health centers offer an opportunity to perform
health screening for many school-aged children who might not otherwise be tested.

Despite respondents’ perspectives and anecdotal evidence indicating school-based
health centers are responsive to adolescent needs and increase access to health and
psychosocial services, no national data exist that demonstrate school-based health
center quality and effectiveness. Early school-based health center evaluations focus on
utilization of services rather than health outcomes. The few attempts at measuring
school-based health center outcomes focus on a few clinics in a limited geographic
are% and their findings camot be projected to all school-based health centers. To
date, much effort has been expended to start and operate school-based health centers
rather than to define how school-based health centers should operate and what they
should accomplish. As a result, standards and outcome measures that recognize
common school-based health center functions and goals, beyond local interests, have
not yet evolved.

Some ‘efforts are underway to define broadly accepted standards for school-based
health centers. One organization, The Coalition For School-Based Primary Care, has
proposed school-based health center Standards and Operations for New York State
school-based health centers. (Appendix D shows the proposed standards developed
by The Coalition For School-Based Primary Care.) Also, as part of a CDC-funded
initiative, Columbia University has convened three meetings of the national workgroup
to recommend national standards for school-based health centers.




                                            10

HOWE-     I.XITLE COORDINATION EXISTSBEXWEEN                      MANAGED CARE
PROVIDERS Ni_D SCHOOLA%4=D HEALTH CENTERS.

FW a~           f-      or hfond    exist between managed cm pmvidm       and dod­
based pmdirx

Few respondents told us of any agreements, formal or informal, between school-based
health centers and managed care providers. Four of the twelve school-based health
center programs we visited have formal agreements with managed care providers.
State officials in 7 of the 33 States we talked to think school-based health centers and
managed care providers are coordinating either formally or informally. In the other
26 States, officials knew of no agreements between school-based health centers and
managed care providers. In many communities, issues between managed care
providers and school-based health centers are too new to have been addressed.

Little tdumge of medical infbnnalio nUkespkhce beZwe4?nmanugdmp*                     and
dtool-baxd   health C~.

Most respondents said sharing patient information is not routine. Neither the school-
based health centers nor the managed care providers are aware of all the treatments
the students have received. Consequently, managed care providers camot coordinate
or manage all the care given their patients.

Respondents give different reasons for the limited exchange of information. Some
believe information sharing is only necessa~ on complex illnesses. Providers may only
share information with patient consent, and some say this has been a barrier to the
exchange of patient information. Some school-based health centers believe time
constraints prevent them from sharing information with other providers. Some
providers also believe that systems for sharing information have not been set up. For
example, in Baltimore and Philadelphia, school-based health centers share information
with providers where they have established relationships or formal agreements. But
there are many providers with whom these clinics have not established relationships.

Many State respondents believe that information sharing does not occur because there
has been no interaction between managed care providers and school-based health
centers. The most common barrier to exchange of patient information mentioned by
respondents is that there is no system or history of relationships that foster the sharing
of information.




                                             11

W=—=           betwt?enswuMc-anti?naM@-+~
manyofthe baniemti codinatk

When respondents told us why they feel managed care providers and school-based
health centers have difficulty coordinating medically and financially, many described
inherent differences between the two providers. Managed care providers and school-
based health centers have some fundamental differences in their approaches to
treating adolescents. These opposing perspectives are illustrated by comparing some
defining features of managed care providers and school-based health centers in the
following table.

    Definim Features of Manamxl Care Providers and S&c&based                                Health Centers
                                       II
 Descriptive Feature                     Managed Care Providers                    Schooi-based Health Centers
                                       l—
 Patient characteristics                 All agea
                                 School-aged, mostly adolescms        !
                                         Diverse in race and economic
             Diverse in race and e.conom]c status ~
                                         status
                                   Medically undeserved, targe
                                       I All are insured
                          number of uninsured

 Services provided                          Full range of primary, secondary,
     Primary care geared to children
                                            and tertiaq serviees
                  with emphaais on edueation,
                                                                                   prewnm,    paychc%ocia4and
                                                                                   mental health seM-

 Hours of seMce                             Required to provide 24 hour
           Usually open school hours with
                                            acceas to care
                        backup ffom sponsoring institutions

 GoaIa regarding service utilization        Designed to increase primary care
     Dea@ned to increase appropriate
                                            and reduce unneeesary inpatient
       seMce utilization
                                            hospital and emergency mom

                                            utilization
                                                                 I
                                                                                   Not-for-profit                        ~
  Profit or not-for-profit status           Can be for-pmtit, or not-for-profit


  Funding sources                           Billiig of private poliq holdew
       Multiple funding sources including:
                                            Medicaid, and Medicare agenciea
       granta from foundationa, local,
                                                                                   State, or Federal agencie% third-
                                                                                   party billing and, in-kind
                                                                                   contributions



The table ex@ins some differences between school-based health centers and managed
care provide= in their approaches to service utilization. While many States told us
they are expanding managed care Medicaid as a way to increase access to a primary
care physician and to provide medical homes for their Medicaid clients, States also
expect managed care providers to control utilization of sexvices. By requiring patients
to go through their prirna~ care physicians for authorization of sewices, managed care
providers reduce the likelihood that patients will use inappropriate or unnecessary
services. Managed care providers typically serve a more diverse patient population      ~
where concerns about overutilizing services are more relevant than with adolescents.
In contrast, because school-based health centers focus on an age group that
 traditionally underutilizes sexvicesj they approach health care with the purpose of
 increasing appropriate semice usage.


                                                           12
Although both managed care and school-based health centers offer primary care to
adolescent   school-based health centers are able to attract adolescents to use medical
services. The school-based health centers have the advantage of high visibility to
adolescents due to their site location.

Rquon&m cite nummiabanim           &CUtW&@ZO “    n between school-bad   bed% ceniim
and rnunaged care pmidem

Most respondents described multiple barriers to coordination between managed care
providers and school-based health centers. The two most commonly mentioned
barriers are communication and financial barriers. Respondents also encountered
obstacles related to issues of legality and confidentiality.

  �
       Communication    Barriers

Forty percent of our respondents said communication impedes coordination. Many
State officials told us that school-based health centers and managed care providers
have never communicated, and in some cases, managed care providers may not know
school-based health centers exist.

Before the two providers can effectively communicate, they must be able to appreciate
each other’s role and perspective. State and school-based health center respondents
indicate that each provider “doesn’t understand the other,” there are “different
motivations” from the two types of providers, and the providers face the obstacle of
overcoming a perceived philosophic difference of a “public health versus a lower
utilization” outlook when communicating.

Managed care respondents see communication as a logistical obstacle. They believe
there are many parties involved in coordinating with school-based health centers. In
addition to coordinating with the school-based health center, a provider may have to
coordinate with health departments, school boards, and a variety of agencies involved
with the school-based health centers. Another problem cited was that school-based
health centers communicating with some primary care case manager plans may be
difficult since there are often hundreds of primary care case managers within one plan.

   �
       Financial Barriers

Thirty-eight percent of all respondents believe financial barriers impede coordination.
Financial barriers impede negotiations between school-based health centers and
managed care providers because the two providers must in some ways compete for a
limited amount of funds. As school-based health center respondents explain, managed
care providers are often “profit motivated, so there is no incentive to coordinate with .
us,” and “providers do not want to give up care of their patients if it affects their
income.”




                                            13

So while managed care providers support the concept of school-based health centers,
they may have a disincentive to forge formal agreements with them because it may
mean giving up some funds. Although managed care providers were much less likely
to mention financial barriers, some did admit that “we might see it as a cost increaser”
if patients got care at the school-based health centers. The State officials’ comments
echo these sentiments. Many State respondents pointed out that the providers must
work out who will provide what services, and who will be paid for these semices.

  �
          Legal Barriers

Legal considerations represent a barrier to coordination in several ways. Managed
care providers are liable for their patients’ care. If school-based health centers
provide care, the managed care plan must oversee the school-based health centers to
ensure quality of care.

Also, school-based health centers may not meet some of the qualifications primaxy
care physicians must meet to participate in managed care plans. Respondents from
two States mentioned State laws that prevent school-based health centers from
delivering Medicaid semices because of the fact that non-physician professionals
deliver most semices rather than physicians.

Confidentiality of patient records present a legal barrier to coordination. Patient
medical records must be confidential, and coordination between managed care
providers and school-based health centers could breach that confidentiality. Many
providers told us they had overcome this problem however, with consent forms
allowing release of pertinent medical information to their providers.

      �
          Cordldentiality Barriers

Aside from the legal issue of confidentiality, respondents mention that coordination

may jeopardize adolescents’ need to keep certain services confidential. Adolescents

may want to keep certain medical treatment confidential horn friends, teachers, or

even parents. Without assurance that their records are confidential, adolescents may

not seek these services.


 Where school-based health centers coordinate with managed care providers,

 adolescents may have fears that their medical records will be less confidential if

 school-based health centers bill or notiq managed care providers about these services.

 Adolescents may fear that parents will have access to the managed care provider’s

 copy of their records. Also, medical plans routinely send an Explanation of Benefits

 to the patient’s home. For these reasons, school-based health centers may be

 reluctant to coordinate with managed care providers, or to bill Medicaid or managed     ~

 care providers for these services.





                                             14

The vast majority of our respondents believe there would be undesirable consequences
if school-based health centers and managed care providers do not coordinate with
each other. Responses are similar for all types of respondents. Those we interviewed
worry most about how a lack of coordination may affect the continuity of health care
for patients. They wow one provider “might not know about semices provided by the
other.” Some believe that “clients will be confused about where to get care” because
no one is telling them when it is appropriate to go to a school-based health center and
when a managed care provider may be more appropriate. Respondents feel lack of
coordination between the two types of providers can be “disastrous for individual
healthcare,” because adolescents may “get lost in a maze of a health care system,” or
“fall through the cracks.”

State and school-based health center respondents are particularly concerned about
duplication of payment, saying school-based health centers in effect subsidize managed
care providers when they se~e managed care patients. The school-based health
centers often treat students enrolled in managed care plans, but usually are not
reimbursed by managed care providers since school-based health centers are out-of­
pkm providers. In a sense, school-based health center sewices to Medicaid managed
care students are paid tice.    The State Medicaid agency pays first when it pays
managed care providers a fixed rate for each patient enrolled in its plan. If managed
care providers are unwilling to reimburse the school-based health center for services to
its enrolled patients, then the school-based health center pays for the semice a second
time from its own funds.

Respondents believe this duplication of payment is serious because it drains school-
based health center resources and may force some borderline school-based health
centers out of business. In this way, duplication of payment may indirectly limit access
to health care for all school-based health center patients, not just those in managed
care plans.

Medicaid managed care providers face reduction in their Medicaid cavitation rate if
they are not providing all services reflected in the cavitation rate. These providers
could perceive the school-based health centers as removing patients from their medical
home and draining funds from the managed care system.


SOME INITIAL EFFORTS TO COORDINATE DEMONSITIATE                         POTHWWW
B~       FOR ~~            MANAGED CARE PROVID~                            AND
SCHOOLBASED    HEALTH CENTERS.

 In communities where school-based health centers have agreements with local
 managed care providers, all parties can benefit from incre-med capabilities to deliver
 managed and coordinated care. To understand these benefits, a description of the


                                            15
different models is helpful. A companion report, School-based Health Centers and
Managed care: Examples of Coordination (OEI-05-92-00681) describes each of these
examples in greater detail.

1.	   State law recwirirw Medicaid managed care providers to coordinate with school-
      based health centers

Oregon is the only State with a law requiring coordination between managed care
providers and school-based health centers. The law requires State agencies to
mandate that managed care providers and publicly funded health care providers
develop agreements authorizing payment for the following sem’ices: immunizations,
sexually transmitted diseases, and other communicable diseases. Because all Oregon
school-based health centers are operated by county governments or State agencies,
they fall under the rubrics for publicly funded health care providers. The law also
requires State entities to encourage and approve agreements between managed care
providers and publicly funded healthcare providers for additional setices and to
develop agreements to coordinate in other ways. (Appendix F contains a copy of the
Oregon law and the Medicaid agency implementing procedures.)

2.    Laal   contract between manatzed care orovider and school-based health center

Only one community we contacted has a formal contract between a managed care
provider and area school-based health centers. St. Paul, Minnesota’s Health Start
school-based health centers have negotiated a contract with Ramsey Hospital, a
managed care provider for the St. Paul area. The six Health Start schml-based health
centers are reimbursed on a fee-for-service basis by Ramsey Hospital for all Ramsey’s
Medicaid patients the school-based health centers treat. The contract treats the
school-based health centers much like any other plan provider, subject to the same
review as other primary care physicians for Ramsey. Therefore, the school-based
health centers must adhere to the quality standards other Ramsey providers must
meet.

3.	    Formal nrotocol for referral and treatment between mana~ed care provider and
       school-based health center

Although no contract exists, Total Health Care, a managed care provider in Baltimore,
and Baltimore City school-based health centers have worked out a detailed agreement
to coordinate sexvices for students enrolled in Total Health Care. The school-based
health centers and Total Health Care have agreed on protocols that define when a
child should be referred to Total Health Care and when it is appropriate for the
school-based health center to provide service. When school-based health centers
provide services to Total Health Care students, they are reimbursed by Total Health
Care at Medicaid rates. The protocols require reporting any care given at the school-
based health center to Total Health Care so that the prima~ care physician stays
informed. The school-based health centers often schedule and foUow-up on



                                          16

appointments with Total Health Care primary care physicians for the students.
(Appendix E includes a chart depicting the protocols established.)

4.	   Includim rnana~ed care ~roviders in coalitions which fund and develoD school-
      based health centers

The Minneapolis, Mimesota Board of Education is negotiating with several managed
care providers in the area. As a result of these meetings, Medics, a managed care
plan, is underwriting the full cost of one of the Minneapolis school-based health
centers for a year. The other managed care plans in Hennepin County are
collaborating with the school-based health center program and are considering
pledging $1 million to fund the other Minneapolis school-based health centers. In
return, students enrolled in their plans will receive prirna~ care and preventive
semices through the school-based health centers. The managed care plans will work
together with the school-based health centers to determine which health services
should be delivered in schools and which should be delivered elsewhere in the
community.

5.-    Entities that administer school-based health centers also administer managed
       care tians

In three communities we visite~ public entities who run managed care plans also
operate school-based health centers. Although this structure was not developed to
address the conflict between managed care providers and school-based health centers,
this type of administration has several benefits. For example, in Brooklyn, New York,
students enrolled in Healthcare Plus, the managed care plan run by Sunset Park
Family Health Center, can choose one of ten school-based health centers also run by
Sunset Park as a primary care provider. Sunset Park has just developed a data system
for all of its clients so that when a child receives care at the school-based health
center, the record of that visit is available throughout the Sunset Park network.

6.	    Managed care nroviders authorize school-based health centers to rwovide care
       and bill Medicaid directlv for service

Another example of informal coordination takes place in several communities where

school-based health centers get an authotition    number from a managed care

provider to treat students and bill Medicaid directly for services. For example, in

Hillsborough County, Florida primary care case managers sometimes authorize

school-based health centers to conduct EPSDT screening. Also in Hillsborough

County, the major managed care provider, Century/PCA Health Plans, has authorized

a school-based health center located in an alternative school for pregnant teens to

deliver all prenatal and postpartum care to several of the plan’s Medicaid eligible     ~

members.





                                           17

7.	    Managed care rives exnedited natient care on school-based health center
       referrals

In San Francisco; the Balboa High School Teen clinic has an informal arrangement
with Kaiser Permanence so students receive expedited appointments when the school-
based health center makes referrals to Kaiser Permanence. When a patient enrolled
in Kaiser Permanence goes to the school-based health center and needs further care,
the clinic telephones a representative from the managed care plan and arranges an
appointment for the child. In this case, the school-based health center performs a
triage function when making referrals by assessing the urgency of the child’s problem.


EVEN THOUGH  SCHOOLBASED HEALTH CENTERS AND MANAGED
CARE ARE EXPANDING RAPIDLY, HHS HAS NO FOCAL POINT
COORDINA~G DEPARTMENTAL PROGRAMS AND A~            INTHE=
AREAS.

The HHS has a hand in both managed care and school-based health centers in a
variety of agencies. Within HHS, there is no locus for decisionmaking on issues
affecting both school-based health centers and managed care. The Interagenq
Committee on School Health offers a first step toward bringing the fragmented players
in school-based health together. But no committee participant nor PHS or HCFA is a
focal point for outside entities to contact. Therefore, those States new to school-based
health centers or managed care may not know where to request information or
technical assistance. As States expand both managed care and school-based health
centers, the need for a focal point to bring together perspectives in HHS will grow.

Numerous State and local governments are establishing school-based health centers in
response to the documented need of primary medical care for adolescents. Twenty-six
of thirty-three State Maternal and Child Health agency respondents say their States
anticipate school-based health center expansion in the next several years. Also, some
States that currently do not have Medicaid managed care, like West Virgini~ are
making school-based health centers integral to their States’ health care reform.

 Managed care plans may play an increased role in health care delivery when national
 health care reform occurs. If so, the number of managed care plans, providers and
 patients covered by managed care will also rise. In addition, States see managed care
 as a way to increase access to care for Medicaid patients as well as contain health care
 costs. Thirty of thirly-three State Medicaid agency respondents say their States will
 expand managed care in the near future. Some of this expansion will be massive. For
 example, California Medicaid covers 600,000 recipients under managed care plans and
 is seeking to expand coverage to 3 million in the next few years. In addition, some      ‘
 States that currently do not have managed care will institute managed care programs.




                                            18

As both managed care and school-based health semices expand, adolescents enrolled
in managed care plans will be more likely to have access to school-based health
centers and the need for coordination will grow. The immediate need is to find ways
for managed care and school-based health centers to complement each other in
delivering health care to adolescents.

Conclusion

At present, there is a dearth of needed information on school-based health centers,
and- in particular, regarding coordination with managed care. Current literature on
adolescent health explains their health needs in great detail and the consequences of
not addressing these needs. However, there is no adequate assessment of how
different providers deliver care to adolescents. We do not know how adolescents are
being sewed by managed care organizations. Early assessments of school-based health
centers are promising, as shown by RWJ, and anecdotal evidence supports the idea
that school-based health centers are an appropriate way to deliver services to
adolescents. But the literature on school-based health centers rarely gives a national
perspective and provides little information about health outcomes for adolescents, and
there are no national school-based health center performance standards for process or
outcome measures.

Both managed care providers and school-based health centers argue that they deliver
services cheaply. But, the data showing the extent of semices provided to adolescents
by managed care providers and school-based health centers vary by community. In
addition, no one has systematically tried to assess and compare the cost-effectiveness
of each in delivering primary and preventive care to adolescents.

Only a few communities have begun to address coordination between school-based
health centers and managed care providers. Because their efforts are new, we cannot
draw conclusions about their effectiveness. With these gaps in our understanding of
managed care and school-based health cente~ HHS has little information available to
make policy decisions regarding school-based health centers and managed care.




                                            19

                  RECOMMENDATIONS





Both the PHS and HCFA designated contacts should lead efforts to bring parties in
the Department together to resolve issues between managed care providers and
school-based health centers. Both PHS and HCFA administer a variety of programs
relating to school-based health centers and managed care. The designated contacts
should work to coordinate these efforts.

The designated contacts should present a cohesive view of HHS activities on school-
based health centers and direct people to appropriate sources of information. The
designated contacts would also be HHS’ link to other agencies, like the Department of
Education, who have also taken an active role in school-based health centers.

The designated contacts should work with national organizations and experts to
develop a strategy for providing needed information to interested lo@ State and
Federal parties. Many communities are new to managed care or school-based health
centers. As they seek information regarding school-based health centers, they should
be able to access information from someone with an ovemiew of school-based health
cente~ as well as an understanding of issues relating to managed care and schooi­
based health centers.

The designated contact for school-based health centers appointed by the Assistant
Secretary for Health should work with PHS to maintain current information about the
development of school-based health centers on a national basis. Since it is likely that
HI-IS funds to school-based health centers will increase as the number of school-based
health centers grows, HHS needs to be aware of school-based health center activity.

% PH~ HCFA and the Szates shouki encoumge Wopenlikm Mweeat schod-inm?d
hedhcenrmand ?nanagedcan?plwvi&%

Those HHS agencies working with States and communities on school-based health
centers and managed care should encourage States and communities to forge working
relationships between managed care providers and school-based health centers. As
health care reform takes shape, this coordination will be more important than ever.
Many treated at school-based health centers who currently have no health insurance
coverage may soon be guaranteed access to health care, and many of these students   ‘
may enroll in managed care plans. Coordination between managed care providers and
school-based health-centers ~ essential to address adolescents’ special needs, like




                                           20

expanded mental health services and counseling, and to overcome treatment barriers
unique to adolescents, like patient confidentiality.

Examples of actions that could be undertaken         include the following.

  s	       The PHS and HCFA can work together to include both managed care and
           school-based health centers on issues affecting child health, where appropriate.
           These issues offer opportunities to bring both managed care and school-based
           health centers together to resolve problems or meet national priorities. The
           PHS and HCFA should work closely with their designated contacts on issues
           relating to managed care providers and school-based health centers.

  �
           The PHS’ Health Resources and Sem-ices Administratio~ CIX, and HCFAS
           Medicaid managed care division can coordinate internal sessions so those
           working with managed care issues can have exposure to those working with
           school-based health centers and vice versa. These sessions can be a part of
           routine conferences, or arranged separately from conferences already
           scheduled. These agencies should make attempts to include other agencies
           represented on the Interagency Committee on School Health when planning
           training that focuses on school-based health centers and managed care. The
           training should inform agencies working on school-based health centers and
           managed care of the State and national issues involving coordination and the
           obstacles to coordination between school-based health centers and managed
           care providers.

  �	
           To encourage States to forge working relationships between managed care
           providers and school-based health centers, HHS agencies can host several
           regional meetings or a national training conference on managed care and
           school-based health clinic coordination. Participants should include, but not be
           limited to, representatives horn managed care systems and school-based health
           centers. Conference organizers should also bring together State Medicaid and
           Maternal and Child Health officials, and representatives from foundations,
           interest grou~ and other agencies to discuss issues and efforts related to
           coordination between managed care and school-based health centers, obstacles
           to coordination, and strategies for overcoming barriers to coordination. For
           example, one meeting could address the barrier created by the patient’s desire
           for personal privacy when confidential services are provided (e.g., mental health
           services). The need for privacy conflicts with the need to exchange medical
           information between the school-based health center and the physician managing
            the care of that patient.

      �	
           The PHS and HCFA can complement their conferences ad training with other,
           mechanisms to share information on managed care and school-based health
           centers. The PHS and HCFA can include information on managed care and
           school-based health centers in literature they routinely send to S;ate agencies to
           keep them informed of new developments in this area.


                                                21
Options that would add to HI-IS’ informationl” include:

  �	
        Within PHS, the Agency for Health Care Policy and Research (AHCPR) could
        fund a study of utilization of adolescent primary and preventive health care
        setices, including mental health and substance abuse prevention and treatment
        sewices. The study should focus on utilization in private and public managed
        care organizations as well as in school-based health centers. The study should
        compare the cost-effectiveness of school-based health clinic services to managed
        care services for this age group. In designing the study, AHCPR should set
        guidelines for the minimum criteria that should be included in comprehensive
        adolescent primary and preventive care.

  �	
        The PHS could work with HCFA’S managed care division to provide small
        grants to communities to encourage innovations that address coordination
        between managed care providers and school-based health centers. These
        grants should include evaluation of these innovations to look at what types of
        solutions may be appropriate for certain models of managed care providers.

  �	
        The PHS and HCFA could contract for a study on model performance
        standards for school-based health centers. If HHS intends to recognize the
        value of school-based health centers in the health care systernj it must identify
        features and practices integral to any school-based health clinic.

   �	
        Within PHS, the Center for Mental Health Services could expand their current
        child studies that examine effective ways to deliver mental health sewices to
        adolescents in school settings.


AGENCY COMMENTS

We received comments from the Health Care Financing Administration and the Public
Health Service. Both agencies supported the recommendatio~           suggested important
clarifications and identified additional issues regarding school-related and youth health
programs. The complete text of the Health Care Financing Administration comments
are included in Appendix G. The Public Health Sexvice comments are included in
Appendix H. We welcome the HCFA and PHS support for the recommendations in




                                             22

our draft report.   We made appropriate   revisions to the report based on their
comments

In response to PkIS comments and suggestions, we revised the Background section to
reflect the differences belween health education curriculum and health service% both
of which a school-based health center may provide, and the Methodology section to
describe the qualitative data we collected. We clarified the need to collect data on
both the processes of delivering setices in a school-based health center as well as
developing outcome measures for these services. In addition, we expanded the
options for conferences for school-based health centers and managed care providers.
We now provide an option to deal with overcoming the barriers presented by the
patient’s need for personal privacy when it conflicts with the need to exchange medical
information. We also acknowledged current research undenvay in the Department.

The PHS suggested revising the recommendation to name designated contacts in PHS
and HCFA for school-based health center issues since they perceived it primarily as an
option to enhance information exchange with HCFA on these matters. InsteaG we
refocused this recommendation to emphasize the importance of a designated contact
for coordination on school-based health center issues. The designated contacts should
first serve as a focal point in their agencies in resolving issues involving school-based
health centers and managed care. In additio~ they should work with the other
designated contact when cross-cutting measures are needed to resolve these issues. To
help share information with communities and other agencies, the designated contacts
can work with existing bodies like the Interagency Committee on School Health.




                                            23

               APPENDIX          A

SCH~LBN~   HEALTH CENTER AND MANAG~   CARE RESPO~E~




                           A-1
                        School-bud   HeaUh Cetier RqPo@m



Adolescent Health Program
Minneapolis Public Schools
254 Upton Avenue South
Minneapolis, MN 55405-198
       contact: &me St. Gerrnaine

Comprehensive School Health Services Program
Baltimore Health Department
303 E. Fayette 2nd Floor
Baltimore, MD 21202
       Contact: Bemice Rosenthal

                               a partnership in Health Care for Denver’s Youth
 Denver School-Based Clinics:
 Universiv of Colorado Health Sciences Center
 BOXB-206
 4200 E. 9th Ave.
 Denver, CO 80262
         Contact: Bruce P. Guernsey

 Department of Health and Rehabilitative     Services
 Hillsborough Coun~ Public Health Unit
 PO Box 5135
 Tampa, FL 33675-5135
         Contact: Mary Emma Howard

  Family Health Bureau

  San Francisco Dept. of Public Health

  101 Grove St. Room 115

  San Francisco, CA 94102

         Contact: Stephen Purser

   Far Rochwy     High School-Based Clinic
   821 Bay Mth St.
   Far RocMwy, NY 11691
          Contact: Linda Jusczak

   Health Start
   640 Jackson St.
   St. Paul, MN 55101
           Contact: Donna Zimmerman
North East Medical Sexvices
1520 Stockton St.
San Fran*,    CA 94133
       Contacc Sophie Wong

Spectrum Health Services

5619 Vine St.

Philadelphia PA 19139

        Contact: Karolyn Baxter

The Teen Health Center
2016 43rd Street
Galveston, TX 77550
       Contact: Stephen Bamet~ M.D.
       School Health & Community Pediatrics
       Department of Pediatrics, C-19
       University Texas Medical Branch
       Galveston, TX 77550

                                  Afanuged Care Reirpondenls

The Bronx Health Plan
1 Fordham Plaza
Suite 1000
Bronx, NY 10458
       Contact: Maura Bluestone

Children’s Medical Center
1575 Vine St.
Denver, CO 80206
       Contact: Jules Amer, M.D.

 Kaiser Perrnanente
 10350 East Dakota Avenue
 Denver, CO 80231-1314
        Conta@. Kristin Paulson Snyder

 Kaiser Perrnanente
 1950 Franklin St. 3rd Floor
 Oakland, CA 94612-2998
        Contact:      Jean Nudelman




                                             A-3

Kaiser Permanence
7201 N. Interstate
Portland OR 97217
        contact ‘Anne Plunkett

Medics

PO Box 1587, Route 7780

Minneapolis, MN 55440-1587

        Contact: Lais Wattman

PCA Health Plans
8303 Mopac, Suite 450
Austin, TX 78759
       Contact: Jan Scott

PCA Health Plans and Century Medical Health Plan, Inc.

2002 N. Lois Avenue

Suite 100

Tampa, Florida 33607

       Contact: Steve Gritin

Total Health Care
1501 Division St.
Baltimore, MD 21217
       Contact: Joan Phillips

    ReqxmdeM      Opemting Both Mmnged Care Planr and School-based Health CerUm

Greater Philadelphia Health Action, Inc.
Executive Offices: 4510 Frankford Ave.
Philadelphia PA 19124
        Contact: Ronald E. Heigler

 Multnomah County Health Department

 426 SW Star& 8th Floor

 Portland OR 97204

         Contact for managed care: Mary LOU I+enrich
         Contact for school-based health centers: Billie Carlson

 Sunset Park Family Health Center
 The Lutheran Medical Center
 150 55th St.
 Brooklyn, NY 11220
        Contact: Jim Stiles




                                             A-4

               APPENDIX         B
OTHER SCI-KXLBASED HEALTH ~      ADOLESCENT   HEALm
              OR MANAGED CARE CONTACI%




                         B-1
Robert Blum, M.D.

University of Mimesota

Minneapolis, Minnesota


Claire Bnndis, Dr. P.H.

Center for Reproductive Health Policy Research

University of California

San Francisco, California


Christel Brellochs

Columbia University School of Public Health

New York, New York


Stu Cohen, Deputy Director

Health & Human Development       Programs

Newton, Massachusetts


Debra Delgado, Associate Director

The School-Based Adolescent Health Care Program

Robert Wood Johnson Foundation

Washington, D.C.


Joy Dxy’foOS,M.A.
Hastings-on-Hudson,   New York

Tim Dunn, Associate Center Director

Center for Health Promotion & Education

Newton, Massachusetts


Florence Frucher, Director

Office of Medicaid Managed Care

New York City Department of Health

New York, New York


 Holly Allen Grason, Deputy Director

 Association of Maternal and Child Health Programs

 Washington, D.C.


 Karen Hacker, M.D.

 Director of Adolescent Services

 Division of Public Health

 City of Boston, Department of Health & Hospitals

 Boston, Massachusetts

Debra Hauser, M.P.H.

Director, Suppti Center For School Based health Centers

Center For Population Options

Washingto~ D.C.


Vince Hutchins, M.D., M.P.H.

Executive Director, National Ready To Learn Foundation

Bethesda, Maryland


Renee Jenkins, M.D.

Director of Adolescent Medicine

Howard University Hospital

Washington, D.C.


David Kaplan, M.D., M.P.H.

Chief, Adolescent Medicine

The Children’s Hospital, Department of Pediatrics

University of Colorado Health Sciences Center

Denver, Colorado


Jonathan D. Klein, M.D., M.P.H.

Assistant Professor of Pediatrics

Division of Adolescent Medicine

University of Rochester Medical Center

Rochester, New York


 Christine Layton, M.P.H.

 Maternal and Child Health Project

 National Association of County Health Officials

 Washington, D.C.


 Julia Graham Lear, Ph.D.,

 Co-Director, The School-Based Adolescent Health Care Program

 Robert Wood Johnson Foundation

 Washingto~ D.C.


 Manette Murphy, M.D.

 Adolescent .Medicine

 Children’s Service

 Massachusetts General Hospital

 Boston, Massachusetts


 Lydia O’Donnell

 Education Development     Center, Inc.

 Newton, Massachusetts




                                            B-3

Tracey M. Orloff, M.P.H.

Senior Health Associate

Children’s Defeqse Fund

Washingto~ D.C.


J.P. Perino, Director

Training & Support

Q.D. Systems

Berkeley, California


Phillip J. Porter, M.D.

Healthy Children Program

Division of Health Policy Research and Education

Hamard University

Brookline, Massachusetts


 Howard Spivak, M.D.

 Chief, Division of General Pediatrics

 New England Medical Center Hospitals

 Boston, Massachusetts


 Rebecca Stone, Senior Consultant

 Ounce of Prevention Fund

 Chicago, Illinois


 Michael D. Usdan, President

 The Institute For Educational Leadership

 Washington, D.C.


 Ann  Delisi Vetter, R.N., M.S.N.

 Child Health Program Coordinator

 Travis County Health Department

 Austin, Texas


  Bobbie Wunsch

  Health Care Consulting & Management        Semites

  San AnsehnQ California





                                               B-4

               APPENDIX          C

sELEcrED BXBLXOGRAPWON SCHOOI=BN~       HEALTH
              AND ADOLESCENT   HEALTH




                         c-1
                                       Bibliography     “

Brindis, CIaire, “School-Based Health Clinics,’f chapter for Maternal and ChiZdHealth
        Practices, Third Party Publishing, (available September, 1993).

Center for the Future of Children, 7he Future of Chikfren, Volume 2, Number 1, (Spring
       1992)

Congress of the United States, Office of Technology Assessment, Adolescent Heahh
       Volumes ~ IL and /11, (November 1991).

Dryfoos, Joy G., “Adolescents at Risk A Summation of Work in the Field - Programs
       and Policies, Jouma! of Adolescent Health, (December 1991)

Fox, Harriette   B., Lori Wicks, and Debra J. Lipson, Improving Access to Cornprehen.s~~
                                                                                      e
         Heaith Care Z%roughSchool-Based Programs, Fox Health Policy Consultants, Inc.,
         (January 1992).

Fo~   J+km-ktte     and Margaret A. McManus, Medicaid Managed Care Arrangemen~
                  B.,


         and Z7zekImpact on Children and Adokscents: A briefing reprt, The Child and
         Adolescent Health Policy Center, (November 1992).

Igoe, Judith B., and Beverly P. Giordano, Expanding School Health Senices to Serve
       Families in the 21sr Century, American Nurses Publishing, (1992).

   -- Martha P., Healthy Kids: State Initiatives to Improve ChiZdrenh Health, National
King,
       Conference of S~ate Legislatures, (April 1993).

Klein,	 Jonathan D., et. al., ComprehensiveAdolescent health Services in the United
        S(ates, 1990, The Cecil G. Sheps Center for Health Services Research, the Center
        for Early Adolescence, and the Center for Health Promotion and Disease
        Prevention University of North Carolina at Chapel Hill, (June 1992).

Kolbe,	 Lloyd J., “An Essential Strategy to Improve the Health and Education of
        Americans;’ unpublished paper presented at 1992 American Academy of
        Pediatrics Annual Meeting, (October 1992).

School-Based Adolescent Health Care Program, The, ACCESS to Comprehensive
       School-Based Health Sem-ices for Adolescents, Journal published quarterly by The
       George Washington University.

 Wasza~ Cynthia, and Shara Neidell, “School-Based and School-Linked Clinics: Update
       1991Y The Center for Population Options (1991).

 U.S. Department of Health and Human Services, Health Care Financing Administration,
       Medicaid Bureau, EF?SDE A guide for educational programs, (September 1992).


                                            c.~
       APPENDIX         D

      PROPOSED NEW YORK STATE
SCHOOLEBMED HEALTH CENTER SI’ANDARDS




                 D-1
                                             Coalition for School-Based Primary Care

60 Haven Avemc. 8-3
tiew Yom< NY   10032   ‘
Phone: 212-304-5248
fax    2,2.305.7024”





                                  RECOMMENDED                   GUIDELINES
                                                         FOR

                                 STANDARDS AND OPEIUTIONS
                                    OF SCHOOL-BASEDCLINICS
                                           IN NEW YORK               STA~




                                                      PREPARED BY

                             THE STANDARD AND OPEIUTIONS                     COMMI~E

                                          DORIS PASTORE, M.D., CHAIR




                           N(X TO BE REPRODU~    WITHOUT THE PERMISSION OF THE   COAIJTIONFOR
                           SCHOOL-BAS~   PRIMARY CARE. MAY, 1993.
                                                D.~
                 Guidelines for Standards and Operations

      In an effort to develop consistent standards to assure program
quality, assist in program evaluation, and provide guidelines for grantors,
the ideal standards for a model school-based clinic (SBC) are proposed.

       These discussions were about an hypothetical urban school with 2,000
students where the SBC would have 60-707i0 of the student body enrolled
or formally registered for services. SBC enrollment currently requms
parental consent. These guidelines aim to describe what core services a
student and his /her family enrolling in the SBC can expect, what staii or
staffing patterns these services would require, as well as what space would
be needed to provide comprehensive school-based clinic health care.

      The S13C model is one model for delivering school health services.
The WC model includes several essential components:              providing
comprehensive primary care; inter-relating with the family, school,
community and medical facility; providing the identified core services; and
being located on the school site.


I. Mission Statement

      The goal of the SBC is to provide or make available comprehensive
primary medical, social and mental health and health education services to
enrolled students. Primary
                     “     care includes first contact care, preventive health
care and longitudinal care over time.

      By comprehensive care we mean that not only will the students
medical needs be met but the student would be assessed for any social or
mental health concerns. For teenagers this means not only a complete
medical history and exam but also an assessment in the areas of home,
school, fa.miIy, friends, depression/suicide, sexual activity, physical/sexual
abuse, violence.        For elementary students this would include a
developmental assessment if appropriate, addressing behavioral issues,
school problems and being a resource for parents. These areas need to be
addressed in an age appropriate manner and where needs are identified

                                       1





                                      D-3

sefices must be provided     or referrals made. Follow-up of problem areas
must take place. The SK must actively interact with not only the student
as a patient, but also the family, communi~ and educators.


      These services are to address    the health and behavioral needs of
students. They are to include health   screening, treatment and prevention;
counseling and crisis intervention;    social service needs; sexuality and
reproductive health care; and dental   needs. These are to be provided by a
multidisciplinary team.

II. Concept:

      The approach to the delivery of this type of health care recognizes the
school-based clinic to be multifaceted in its roles and responsibilities. The
school-based clinic inter-relates with the family, host school, local
community, as well as the “back-up” medical facility:

      . Family - The enrolled student is viewed in the context of &/her
family. The involvement of the family will be enlisted as it pertains to the
care of the student and as appropriate to the age of the student. This
would be an especially crucial aspect of providing care in the Elementary
programs.

      . Schcx)l - The SBC is a functional component of the school and as
such not only delivers direct care but aims to work cooperatively, both
formaLly and informally, with school administration, faculty and staff.
However, the confidentiality of the provider-patient relationship and of
medical records is fully maintained. Both the SBC and the school maintain
separate but interdependent roles.

      Programma tically, the school assists in obtaining informed parental
consent, obtaining insurance or medicaid information, in follow-up of
broken appointments, marketing the SK, and giving access to school health
records. The school is responsible for maintenance of the facility, including
providing a clean, safe, secure environment.




                                       2




                                       D-4

      .Community - The SBC recognizes that the school functions within
a community and therefore wants to draw upon its resources and establish
mutually dynamic relationships.


       . Medical facility - The “back-up” institution operates the school-based
clinic and has the duty and responsibilityy to ensure program quality. This
is to include but is not limited to an appropriate referral system, qua litv
assurance, continued medical education, and contractual compliance. The
organization sponsoring the SBC must ensure that this linkage takes place.

      Specifically, the medical facility is also to provide billing support,
availability of in-patient care if needed, continuity of care including ~24
hours/7 days), and training if an academic program.


III. Activities

      Involvement of the SBC with the family, school, community and
medical facility in the goal of providing comprehensive primary care
necessitates that the SBC undertake the following activities:

      .   direct services	    - medical
                              - mental health
                              - sexuality and reproductive health


      .   health education	   - students
                              - parents and community
                              - school faculty


      .   training	            -   medical students/residents/fellows
                               -   NP/PA students
                               -   social work/ health education students
                               -   health professionals



                                         3




                                          D-5

      .       advocacy             - individual student /family both internally a
                                   externally

                                   - SBC within the community

                                   - growth of SBC’S


       These activities would take place in SBC’S of Elementary, Middle a
Senior High Schools. There would be a Particular emphasis in meeting t
needs of parents among the Element& programs by making avai~a
referrals f~r direct servi=es, providing health education and advocacv.


IV. Services

      All school-based clinics should provide the following core service

      .Comprehensive medical and psycho-social histories and
individual assessment of strengths and risk

      .       Physical examinations

      Behavioral and developmental assessment as age
      .
appropriate

      . Diagnosis and treatment including the prescribing of
medications of minor and acute problems

          Case management including utilization of back-up medical
          .
 facility and community resources for speaalty seMces

          .   Dental health assessment and referral

          . Family planning and reproductive health services as
          age appropriate

          .   Health education, promotion and prevention

          .   Laboratory testing


                                            4




                                            D-6

      .   Immunizations

      .   Management of chronic problems

      .Mental health and social service assessment, treatment or
appropriate referral

      .   Nutrition counseling

          Outreach

          Physical/sexual abuse identification and referral

      STD/ HIV/AIDS education and HIV pre/post-test counseling or
      .
appropriate referral

      .   Substance abuse assessment and referral

      .   24 hour medical coverage


        Additionally, optional services could be provided dependent up
community need and funding resources. These would include classroo
education, dental seMces on-site, health care for siblings of enroll
students, health education for family membem, pm-natal care, te
parenting   programs,   risk behavior modification programs such as tho
addressing smoking and obesity.


V. Staffing

      In order for the SBC to function in a multifaceted mann
appropriately deliver medical, mental health and reproductive servic
provide health education, trainin~ and partiapate in advocacy, the S
must be staffed by a multidisciplinary team. The staff needs to be flexib
Sources of support for staff might include the sponsoring facility, the Boa
of Education, or an community agency.



                                        5



                                        D-7

     Based on the collective experience of the Coalition and the services
SBC’S are to provide, a staff of 7-8 full-time persomel is recommended for
a typical urban school of 2,000 enrolled students.

     This staff is to include but not limited to:

       Nurse Practioner/Physician Assistant - providing direct service and
program management, where appropriate. It is felt that each NP/PA can
provide care for 700 enrolled students.1

      .  Mental health provider - the SBC must be able to address differing
needs, including group, individual, family counselin~ crisis intervennon;
short-term counseling, long-term counselin~ case management; as well as
make referrals where appropriate. Consultative and supervisory serwces
must involve a doctorate Ievel prof-sional and be staff appropriate. To
provide for the mental health needs of 700 enrolled students a minimum 1.3
mental health providers would be required.


      . Physiaan - there are different models for physician presence in the
SK and range from a minimum supervisory presence to full-time primary
provider. Minimum supervision would require presence for one three-hour
session (chart review, supervision, consultation) per week for the first
NP/PA, adding a session for each additional one or two NP/PAs (i.e., two
sessions for 2-3, three sessions for 4-5, etc).


      .  Program Manager - for large programs of greater than 2,000
enrolled students, there needs to be at least one full-time program manger
who is not a provider. Alternatively, these duties can be fulfilled by
appropriately qualified staff or assumed by the back-up institution. The
SK is accountable to the responsible physiaan of their agency e.g.
Division of Adolescent Medicine; Department of Pediatrics; Department of


       1 mm m?/PA   : Student      ratio of    1:700   was   tirivml   frout the,
collective experionca of thosa involved        with tha Coa%itioa       and from
review   of tha Fodoral   guitilinas     set   forth fox C-unity         Haalth
Centers.


                                       6




                                       D-8

Family Practice. These duties include: budget and finance; data collection,
statistical reports and narratives; purchastig writing grant proposals; staff
supervision/scheduling;     liaison with schooL back-up, community, and
funding sources; seek out funding sowces;              advisory committee
participation; quality asswance coordtiation; program development and
program evaluation.


      . Health Educator - to provide individual and classroom information
on family planning issues, nutrition and weight, etc.
The Coalition recommends one full-time health educator be part of the staff
providing care for 700 enrolled students.


      .   Clerical/School HeaIth Aide -to work closely with school staff and
ST3C team in such areas as clinic patient flow, appotitment making,
checking insurance, recalling students, immunizations, data collection and
state reporting requirements, supervision of other students in the clinic, etc.
It is felt that one full-time aide is needed in a program providing care to
700 students. These responsibilities may also be fulfilled by a medical
assistant /receptionist.


      In a school where there are 400 enrolled students the responsibilities
of SK program management can shared across disciplines. For example,
an SK might be staffed by a NP/PA .75 ITE -1.0 FIE (dependent upon
exact duties), Mental health provider .75 F1’E -1.0 lTE (dependent upon
exact duties), clerical/school health aide 1.0 ITE, and Physician .10 -1.0
(dependent upon SK stmcture).




                                       7




                                        D-9

IV. !%ace

       The space for the SBC must be adequate to accommodate appropriate
staffing. For a school with an SBC enrollment of 700, approximately 2,000
Sq. Ft. would be required and would include 2 exam rooms per full-time
provider (with sinks), 1 counseling room, 1 laboratory area, 1 patient
bathroom, 1 waiting room, 1 storage room, 1 clerical area. The actual floor
plans need to provide for patient privacy and be functional in allowing
good use of clinic space. The SBC also needs a private telephone line to
ensure confidentiality and adequate access to the community and “back-up”
institution. Additional space would be required should the SBC be a
training site.




                                     a


                                     D-10

                APPENDIX        E

EXAMHE OF SCHOOI/BASED HEALTH CENTER AND MANAG~ CARE
     PROTOCOLSFOR REFERWNG ANDTREATINGPAITENI’S




                         E-1
       BALTJMOM CITY HEALTH DEPAR=~SH&&                                        TOTAL HEALTHCARE HMO CLIENTS




        m
                                                    1           1


                                                                I
           Child needs                         Child needs
           episodic cue                        cmergeacy Cafe
                                           I                    ,
                                                                                         .                                      v
                                                                           PNP aendareferral                            currentlybeing
                                                                           with return
                                   1.    PNPealla911&tK4                                               l<==i--c
                                                                           envelocwto C7                            I
                                         w&a	 to Emageacy                        .
                                                                       L
                                                                                          II
                                                                                                       .
                                                                                                                            n
                                   2. PNP notifies (X hat
                                                                                         u                                 -=5$
                                      patienton way to                     c1?





                                                                                                                  L
                                                                           L   Makesappt.                         school PNP will

                                      Emergency Room                                                              aue.enebiid&=ad
t-n               =
                                   3. crw’iunotify@ds                      2. Notes %eboolhealth”
                                                                                                                  repat&biUto

                          “2!
I
      CT   ails patient’sPCP          PCP                                     in eunmenf aeetial of
w
      Weksaamc day appt.                                                      computes6y-                         THc
                                                                           3. Complc4e8appt. dip&:
      7“—                                                                       �.sadacopyti i-­
                                                                              b. Sends copy to school
                                                                                 nume
                                                                              c. Ticldem � copy to
                                                                                 InAeremindadl
                                                                                 &y before �ppt.              I
                                                    u                      4. Sends refaml & env. to
                  N                Child sent to THC with aebool              Numing Managa at
              @                    refed & altachedrduxn em.                  p8tieQt’6PcP de
      Patient
          seen bv school       1                    II
       PNP & Sepott”aentto     I                    J[                                         #
                                                    v


                                                                                                           1
                                                                                 Numing      M8n8gcx
                                                                                                  IiCkkB
                                        Child seen by P(X & xefaml _             tcfud  & amaa ~
                                        ldtllld to add    by mad in              I?x4ivu rehlrll
                                                                                               m
                                        attached envelope       _]             I ~                 @          I
APPENDIX     F




       F-1
..

     .



                                     66th OREGON LEGISLATIVE ASSEMBLY-1991 Regubr Session



                                                                   Enrolled
                                                    Senate Bill 760
          Sponsored      by Senator KENNEMER;              senators    BRENNEMAN, CEASE, COHEN, GOLD, HAMBY,
                  McCOY, TROW, Re resentatives             BARNES, BAUMAN, CARTER, CLARK, HAYDEN, MASON,
                  McTEAGUE.       MEE~,  MILLER,           SHIPRACK, SOWA, STEIN (at the request of Clackarnas
                  County, Coalition of Local Health         OfIicials)


                                                                        ..
                                                                        .           G37

                                                    CHAPTER ............ . ..... ........... ....... .......



                                                                        AN AtX



         . Relating    to poverty   level medical    programs.

          Be It Enacted       by the People     of the State           of Oregom

                SECI’ION 1. It is the purpose of this Act to take advantage of opportunities to:

                (1) Enhance the state and local public health partnership;

                (2) Improve the accesa to care and health status of women and children; and

                (3) Strengthen public health programs and senices at the county health department level,

                SECTION 2. The Adult and Family Services Division, the Ofllce of Medical Assistance           Pro.

          grams and the Health Division shall endeavor to develop agreements with local governments to fa.
          cilitate    the enrollment   of poverty level medical assistance     program clients. Subject to the
          availability of funds therefor, the agreement shall be structured to allow flexibility by the state and
          local governments and may allow any of the following options for enrolling clients in poverty level
          medical assistance programs:
                (1) Initial processing shall be done at the county health department by employees of the county,
          with eligibility determination     completed at the local orlce of the Adult and Family Services Divi­
          sion;
               (2) Initial processing and eligibility determination shall be done at the county health department
          by employees of the Adult and Family Services Division; or
               (3) Application     forms shall be made available at the county health department with initial
          processing and eligibility determination      shall be done at the local office of the Adult and Family
          Services Division.
               SECXION 3. To capitalize on the successful public health programs provided by county health
          departments and the sizable investment by tmate and local governments in the public health system,
          state agencies shall encourage agreements that allow county health departments and other publicly
          supported programs to continue 10 be the providem of those prevention and health promotion ser.
          vices now available,       plus other maternal and child health services such as prenatal outreach and
          care, child “health services and family planning services to women and children who become eligible
          for poverty level medical assistance program benefits pursuant to section 4 of this Act.
               SECTION 4. [n order to make advantageous use of the system of public health services avail-
          able through county health departments and other publicly supported programs and to insure access
          to public health services through contract under ORS chapter 414, the state shall:
                (1) Unless cause can be shown why such an agreement is not feasible, require and approve
          agreements between prepaid health plans and publicly funded providers for authorization of payment
           for point of contact services in the following categories:




                                                                          F-2

    (a) Immu?tiZatiOW,

    (b) SeXudly transmitted      diseases; �nd
      (c) Other communicable diseases;
      (2) Continue to �now �nrollees in prepaid health plans to receive family planning services from
fee.for.semice    providem,
      (3) Encourare and �.pprove
                               .      agreements between prepaid health plans �nd publicly funded pm­
viders for �uthorization of �nd payment for services in the following categories:
      (a) Maternity case management;
      (b] Well-child care; and         .
      (c) Prenatal care; �nd
      (4) Recognize the social value of partnerships between county health departments       and other
mbliclv SUDDOIId
              ..       cmtzrams
                        .-        � nd  other health provide=, �nd ~ke appropriate ~a~u~s    to involve
publicly supported health care �nd service programs in the development �nd implementation             of
managed health care programs in their areas of responsibility.




Pmaed   bySenate
               May Z$ 1991                                                     Received by Oovemm
                                                                               ..J.\,.oo
                                                                                      ......mM..._Q.m--.!a-...
                                                                                        .              ..._.. -.._-...1991
            .&“x4a>??A42ff              . . .... ....................
             ..................................                                Approve&

                                                                               %.!.%..&.hL-xJY3.%
                                                                                      ...=j...........-....-..                                              !991



            ----p@iii:                                                                           .             ... ......

Passed
     by     House  iuoe &1991                                                     *-*
                                                                               Filed by Office of Secretasy                  of State:


            ............. .
                          c........... .      Speaker of House
                                                                               ../.f.2.!..-(?M..M..-- ....-JLLM.JG...-_..-.                                 ,99,




                3—
                                                                                           ....zti ............ ................/&
                                                                                                                                 ..................................
                                                                                                                                   Secretary of SLa
                                                                                                                                                     5




 Enrolled    Senate      Bill 760                                                                                                                       Page 2




                                                                        F-3

     1.8   Masu-ti            Standd
           LI ~’      tO ma      ~vantagcous     of the system of public health senciccs available
                                                usc
           tiUgh     county    health departmen~ and Otk publicly SU~ti       prOgIamS and to
           ensure access to public health semke+ through contract under ORS Chapter 414:

           a.	       Unless cause can be shown why such an agreement is not feasible, the PKP
                     shallexecute agrccmentSwith publicly funded providem for authotition of
                     paymentfor pointof contactscM= in thefollowingcatcgoriti:

                     (1)      IfmmmizltiOrlS;


                     (2)       Sexually transmittal di-;         and

                     (3)       other @mmuni*le        diseaSU.

            b.	      Pm       mem-     may receive family ptig          services ffom appropriate non-ph
                     providcm.              .

            c.	       The PHP is cncouE@         to exccutc agrcemas with publicly funded protidm
                      for autho~tion      of and payment for services in the follotig catcgoria:

                      (1)      Maternity case managemen~

                      (2)       Well-child ~,      md

                      (3) Prenatal care.

             d.	       Rcco-g          the social value of piulnefi~       betw= county hcalti
                       deptmm~ and other publicly suppoti               programsand other health protidm,
                       the PHPshalltakeappropriatemeasu~               to involve publicly suppoti halth
                       ~    ~ -CC    -S       in the dcvelopmClltand implemCntitim of you
                       In.am@healthcare programs.




(

                        OU4?Obwgon H&           ma m? A$@&Wu@n


La   ReqUkd Respoase

     A.    Describe theagreements andhrsubcontracts
                                                youwill-t        fm OMAP
           -        ~ @reply with MeawememtStandard I.&, or explain steps your
           organization will take to cOmpiy with this statutory requirement.

     B.    Response due 4/20/92: Unless exempted from complian~ with Measurement
           Standard 1.8a, attach any agreements and/or submntracts (or draft versions)
           you are submitting for apprwal to OMAP to mmply with this statutory
           requi.mrnak

     c.
 Describe any agreements and/or subcontmcts you will have with pubhcly
           funded providers to provide matemity case managemcnq wel.khild care
           ador prenaal are.

     D.    Response due 4/20/92: Attach any agreements andlor subcontracts (or   dm
           versions) with publicly
                                 fundedprovidexs

                                               toprovidematunitycase
           managemea~                             cam
                         wdkhild cam ardor prenatal


     E.    Desde                                                  of Measuremen
                     your orpkation’s poliaeswhich addresstk i.ntmt

           standard

                 1.8CL




                                    Stctioaw     -%gt7


                                          F-5


                                                                  —
      APPENDIX         G

HEALTHCARE FINANCING AD~~ON
   RESPONSE TO THE DW    REPORT




                 G-1
   ....       ;%
 *.
-.” .
:*

:
7.
  %
        & “
               �

                         DEPARTMENT

                         -.         ,..—--—.
                                               OF HEALTH

                                                     -
                                                           &

                                                           -----
                                                                   HLf.MANSER1’!(:ZS
                                                                               ..—     .-.   .--——
                                                                                                     Health

                                                                                                          Care

                                                                                                            -------
                                                                                                                      C-,Ir.:IrC

                                                                                                                              ______
                                                                                                                                       Admtnfstraf

                                                                                                                                            -.




                    FROM:	


                    SUBJE~
                                         Bruce C. VIadec--
                                         Administrator
                                                           -3i’--�
                                         Office of Inspector General (OIG) Draft Repor& “School-BasedHealth
                                         Centm and Managed Health Care,” (OEI-05-92-00680)

                   TO:	                  Bryan B. Mitcheil
                                         Prjncipal Deputy Inspector General


                   The Health Care Financing Administration (HCFA) has reviewed the subject draft
                   report which reveals that school-based health centers increase access to health care for
                   adolescents.

                    We        supportthe three recommendations contained in the report. We agree that more
                    information about school-based health centers is needed inorder to improve the
                    coordination be~een managed care and better serve the health care needs of
                    adolescents. In particular, we believe the Public ?ieaIth Semite and HCFA should each
                    designate a contact to coordinate on issues involvingboth managed care and schooi­
                    based health services ?Imse wntaots should lead the Department’s efforts in this area
                    and work with appropriate agenoies to study the issues desd%ed in the repot% The
                    number of school-based health centers and managed care plans are incr~~      and
                    linkages between these wo qp of providers will be essentiai to both Medicaid and the
                    entire hea[th care system.

                    Thank you for the opportunity to review and comment on this draft report Additional
                    comments are attached for your consideration. Please advise us if you would like to
                    discuss our position on the report’s recommendations.

                    Attachment




                                                                             G-2

        Comxnenrsof the Health Care FinancinizAdministration [HCF~
                 Office of InsO~Or General (OIGI Draft Rent@
            ‘scoo
             ~     -
                                  EM15-92-00680


GeneA    Comments

Page 6 states that mosg but not all, of the investigators’discussions with manag
carerespondents related to Medicaid managed care It m“ghtbe worth
mentioning here that although the focus of the reportwas the extent to which
school-based health centers coordinate with Medicaidmanaged care programs,
the findings are relevant to managed care plans in general. Also, throughout t
repor$ it would be useful if any of the tidings that might be uniqueto Me&lc
managed care were separately highlighted.

On page 1% after the Iast seatence in the Communication Barriers sectio~ we
suggest adding the folkwing to include ISmherinformation about primarycare
case management aystenxx“Althoughmany providers are invohwd in the pia
Medicaid recipients may choose a provider and then the prwider’s name and t
telephone number WINbe included on the recipient’sMedicaid card.”

On page M, the kzst sentence  in the second paragraph should include
acluwwledgement   that State Medicaid agencies can also pay “twice” through
duplicative claim We suggestthe followingas an addition to the last sentenc
w    a second time from its own fun~ or bills Medicaid and the State pays fo
tie Ace.”




                                      G-3

             APPENDIX            H

PUBLXCHEALTH SERW=   RESPONSE TO THE D~   REPORT




                         I-I-l
      -...,
 /’

%%
4
.“
a

;
                DEPARTMENT OF HEALTH & HUMAN WRVKX$



                yCPlH51993
                                                                                  I?wliCHdtl­


                                                                                   Memorandum
         Qlte

                AaaLstant       Secretary       for    Health

         Subjecc	Office of Inspector General (OIG) Draft Report$                  “School-Based
                Health Centers and Kanaged Care?”                  OEI-05-92-00680
         To     Acting      Inspector       General,     OS


                Attached     are the PHS comments on the subject draft report.
                Tho OIG report is very tinaely,especially in light     of health
                care reform and the high priority placed on tiprovinq the
                health status of our Nation’s children and youth by the new
                AdauinL,stratLon.
                We generally concur w~h                 the OIG recommendations.

                                               (/”              a ~�
                                                Philin
                                                    —.        . Lee.
                                                                — –. M. .


                Attachment

 c~         s    QF THEE!UBuc IW4LTH     smwIcE (PHS 1 ON THE O~IC E OF
      ~BCT(lR         GENEIUL (OIGl    RAFT REPORT ON *scxoor4”BAsED
                 CENTERS   AND MAHA@    HEAIITHCM ~,” o~z-~5-92-00680




We commend the OXG for recognizing the importance of examining

the issues addressed in this study more closely. Their effort

reflects     one of the earliest  attempts to do so and~ as such~

offers useful and important directions for further study.         The

report is very timely, especially in light of health care

reform    (HCR) and”the high priority placed on improving the

health status of our NatLon’8 children and youth by tlw new

Administration,     the Assistant  Secretary for IWalth, and our

new Suxgeon General.

PHS generally concurs with the three      OIG recommendations,

although    there are a number of specific comments that pertain

to the recommendations. PHS balieves, howwor, that the body

of the report can be strengthened by$ (1) making clearer the

unique    contribution that “school-based or linked health

centexs’ (SBHCS ) can make; (2) explaining      how S1313CS
fit into
the broade~    context of “school health”   and “adolescent
health;”    (3) clarifying and improving understanding of these
concepts and terminology; and (4) ackmwledging and build~ng
upon tho limitations of the study as a basis for further
xeseaech.     Some guidance in this regard in provided below.

�                 Ca of      . Because they are located in or near
      oux              where most of our children and youth C-
                schools,
      to ether on a regular basis,     SBHCS can provide an
      et$ective means for improving access to health sem?ices
      and a tremendous     opportunity to reach tlmse vulnerable
      populations in an attempt to pzevent or minimize high­
      rlsk behaviors that �ndanges health status. Coordination
      of se~ice~      provided by SBHC8 with those of managed care
      systems in the coamunity offers yet another opportunity
      to enhance effeotiveness~ efficiency, and the health of
      school-aged     populations.

�	    ��                          SBHCS or semices a~e not
      necessarily synonymous or interchangeable (nor.should
      they be) with school health    issues, adolescent health
      concorns, or with semices geared only to children and
      youth who are medically undeserved, economically
      disadvantaged, uninsured, or in urban settings. The
      report needs to acknowledge a broader understanding and
      appreciation of these concepts and place the          study   and
      its findings within this bxoader context.




                                           H-3

     Specifically, it is important to make distinctions

     between “school-based/ltiked health centers” (essential
     health caze aemices delivered in and/or near school.

     settings), ‘S*OO1 h-lti” prov~a             and activities

     (which, if “comprehendive~” may include not only health
     serwLces, but other elements provided in schools to
     enhance tho health of school-aged populations~ such as a
     age- and d=elopnentally-appropriate health education
     framework or classroom    curriculum,      nutxLtiou8  meals,
     physical fitness   and sports     progzama,    an envirotint fr
     of dregs, violence, pollutants,etc.) and “adolescent
     health” efforts (which are aimed at achieving,

     maintaining, and improving the health of adolescents

     specifically and are not limitad only to adolescents in

     school or to what can be done in schools).

     On a related note, while the report indicates that the
     SBHC8 in the study and, most SBHCS currently in
     existence, emphasize senices to adolescents and includ
     family planning, care needs to be taken not to rebf=ce

     fears  or wrongful notions that “school-based/link~
     health centers or sezwices” are geared only to
     adolescents and/oz �xist to provide se~ices related to
     teenage sexual behavior. It would be useful, therefore
     to reference  the range of health services that SBHCs ca
     or do provide (L.e.~ immunizations, nutritional/dietary
     counseling, substance abuse--inc~udlng alcohol  ~d
     tobacco--an d mental health counseling  and referral,
     treatment   of tinox fnjuries, safety education, etc.)
     It would also be useful to present SBHCa within the
     context of comprehensive school health programs which
     offer benefits to ALL school-aged (including elementary
     and perhaps, post-secondary) populations and those in
     rural as well as urban areas. The issues of coordinati
     with community semices ar. applicable to the other
     components (twch as a health education curriculum or a
     healthy school eny$xonment) of such a comprehensive
     program as well. ~xthennore, the ~rtance      of the

     family, home, and neighborhood environments also needs

     be dcnowledged,

�	   ��                   In the section on “mainstream
     medical delivery systems” (pages 3-4), a stronger case
     could be made regarding the need to address adolescent

     health care concerns through means that complement

     traditional delivery systems. What is the “dilemma”

     posed in trying to promote adolescent health? What is
     the nature and extent of the health problems faced by

     unique to adolescents (including but not limited to se
     and drug-related issues)? How are such problems





                                    H-4

                                                                          3



     8%aC8Zbat~ by the social, emotional, and developmental

     issues most adolescents experience? What is the critical

     role that primary and secondary prevention can play for
     adolescents ? How do mainstream     systems fail adolescents
     us compared  to other populations    and why are school-     ,
     based/lhlced   health centora   most suited to filling the
     gap?

w	   st~~-ffqg.              The report states that school-based/
     linked health centem increase acc8ss, provido some
     se=ices more easily than managed care systems,           and offer
     other significant benefits if coordinated with local
     managed cars providers and/or systems. It also
     LdentLflea  a number of barriexu      to coordlnat~on    and
     cooperation. However, the data to auppo- oonclualonO
     regarding  benefits    and barriers   are largely   anecdotal~
     reflecting  respondent    perceptions    and feelings rather
     than hard evidence. It may be useful to mention the
     limitations of tho study based on the methodology and to
     specifically propose studies regarding actual benefits
     and barriers under the last recommendation.
     Another Mmitatlon of the study that may be worth noting
     1s in the nuaber and types of respondents inte~iewed.

     Given that State 14edicaid  agencies, State Maternal and
     Child Health (%CH) offAces,   and Community Realth Centers
     wece ~asizdr     the rasults will naturall nfleot a

     heavier focus on se=ices to the economicsI Ly

     disadvantaged and &ically     undeserved and to

     populations seeking psenatal and other MCR-related care.

�          den~tv       ~-         &rr     fer#*   Page 10 of the draft
     presents a number of reasons for         Mm.ited    coordination   and
     exchange of medical information         betwaen    managed care
     =ymtems and school-based/linked health centeru, but does
     not include the critical issues of personal privacy,
     conficientiallty,and security of informatf.ontechnology

     systems. On page.19, it is stated that coordination I.s

     essential to overcoming treatment barriers; howummr, it

     might be argued that overcoming cefiain barriers,

     including iasuea of privacy and confidentiality, is
     eeuentlal to coordination. ~U8, it might be WOXth

     conaidoring a reoosunendationto fo~ some sofi of

     mechanism (e.g., task force, working groups) for

     addressing these and other actual or potential barriers
     to coordination.

�              mlth   0ut4xUeS WrSuS Uti*    tial. The report
     states that there axe few, if any, attempts to measure
     health outcomes xelatad to school-based/linked senrices,
     and stresses the need to move beyond utilization




                                    H-5

                                                                 4

     asuessmenta to measures of quality and effectiveness.
     G&vefi that a major justification for such se~ices is to
     improve access and delivery, the inqo~ance of
     utilization data should not be minimized. We believe
     that more and better efforts need to be made in both
     utilization assessment and measurement of quality and
     effectivene66.
OIG RECOMM=DATIOll

The Assistant Secretary for Health and the Administrator for

Health Care Financing should each designate a contact to

coordinate school-based health center issues in their
agencies. Thesa contacts should provide a point-of-entry for
those outside HIM who need information about school=ba8ed
health centara.


JMUxUUX     s

 We genezally agree with the OIG recommendation. Ik3w0verr we
‘believe the thrust of the reco!tznen
                                   datlon is information
 sharing.  For that reason, OIG may wish to consider changtig
 the word “issues” in the first sentence of the recommendation
 to “information.”
 We agree that designating single points of contact in P13S and
 the Health Care Financing Administration (IXCFA) fOr
 information exchange on SBHCS and managed cam 1s one possible
 way to enhance cocmlination. within PM, however, there are

 many possibil~ties regarding the manner in which efforts
 related to SEHCS, school health, and adolescent health can be
 coordinated, managed, or addressed. All of these
 possibilities will be considered by the new Surgeon General as
 she assumes responsibilities relative to those efforts.
 Consequently, we suggest that this recormnendationbe modified
 to r~flect the need for the heads of PM and HCPA tOl (1)
 identify means by which to effect coordination within and
 between their agencies.on issues related to SBRCS and managed
 care and (2) enable outside parties to more easily obtain
 accuzato, adequate, and up-to-date information on SBHCS.

 Designating points of contact could then be presented as one

 of many possible ways in which these needs might be met.


 The PHS, HCFA and the States should encourage cooperation

 between school-based health centers and managed caze

 providers.





                                H-6

We  support   this  recommendation, especially its intent to

address treatment barriers. However, as mentioned in our

gensral comments, while coordination is essential to
overcoming tseatment barriers~ it might be argued that the
reverse is also *ef          i.e.~ that overcoming certain barriers,
such as confidentiality, is essential to coordination.
Studios    of these  barriars    8hould precede any Federal mandates
for racord @baring and other coordination fo~ all treatment
populations including adolescents.



The PHS and HCFA should work with HHS agencies to fund
approp~iate studies and grants that will add to HIM’ knowledge
on school-based health centers and managed care providers.


We agree that more studies are needed to add to our knowledge

regting    SB8CS and managed care systems and/oc pxwidarsr

particularly in light of lxcR. Identifying the priority i86ues
to be utudied and the research questions to be answered IS a
loglcal step to ensuring the implementation of a cw~tion
resoasch agenda.   Coordinative bodies such as the Interawcy
Committee on School Health (ICSIi)ox the National Coordinating
Committee on School Health (NCCSH)--both recently established
by the Office of Disease Prevention and Health Promotion on
behalf of DHM--may ba able to assist Ln this regard.
With reference to specific studies, it is critical that
studies be proposed and conducted to provide more solid
evidence  of actua~  benefits and barriers and data upon which
to base our policy   and progmm decisions relative to
coordination of SBHCS and managed care systems. studies to
 provide more Information,about effects on access and
 utilization, and research on quality cuntrols and standards
 are a180 needed. The Eealth Resources and Se-ices

 Ad.Uthi8t%&ti0n suggested an expansion of the OIG study to full

 case studiee and evaluating these caaeziin order to obtain

 greato~ hsight into the local conditions which make SBHC8,

 managed care syutm,    and coordination Posuible and
 succeaeful �  In all instances, great cake must be taken in the
 design etudLe8. For example, strictly comparing utilization

 patterns 02 cost effectiveness of managed care organizations
 and 6BHCa may not be appropr~ate since it 16 likely that many
 adolescents will use both semice delivery systems for

“diffe~ent purposee.

 While our knowledge in these areas is rather limited, care-

 wU1 need to be taken not to duplicate existing efforts which

 address adolescent health needs, such as the American Medical





                                  H-7

                                                                            6


Association’s GuidelQes of Ad lescent Preventive s~i

Care will also be needed to co~duct      atudias     within   the ~=~ext

of othor   DHHS and/oz  PHS activities   that    address    adolescent�
access   to care,  such as the guicielties of the U.S. Pr-tive

Servic_ Task Force and the Centers for Disease Control and

Prevention’s �valuations    relative   to SBHCS and comprehensive
school    health   education.
The OIG may wish to recognize the fact that the Agency for
Health Care Policy and Research (AHCPR), the Substance Abuse
and Mental ?IeulthSe~ices Administration (sAHHSA) and perhaps
others in PM already have existing grant programs which could
expand our knowledge bases vis-a-vis SBHCS and managed care
providers. For example, AHCPR recognizes that our lack of
national data regarding the effects of SBHCS and managed care
providers on the health outcomes of adolescents is due, in
part, to the absmce of good measures of health status for
th$s age group. Xn Febnary 1992, the AECPR began funding a
3-year grant project which is validating and refining  a aelf­
administered instrument to measure the health statuu  of
adolescents whu were drawn from school and cllnlc populations
(including managed care organizat$on6). If this project La
successful, the instrument could be used to asaist in
determining the effects of school and managed care programs on

the health status of adolescents and generally assist in

planning, developing, and evaluating health ptograms.

The AHCPR also sponsors gxanta related to managed care.
Although  the AHCPR’S current portfolio does not contain
projects that focus specifically on the coordination of
managed  care and SBRC8, several of these studies examine other
coordination of care issues.

Within SAMHSA, the Center for Substance Abuse Prevention has

numerous demonstration grants that are evaluating prevention

and early intexwention pqograms and policies in schools.

Also, the SAMHSA Center for Substance Abuse Treatment

explicitly targets substance-using adolescents as one of the

critical populations for its demonstration grants.
Furtlmrmxe, the SAMHSA’6 Centez for Mental Health Se-ices
develops and test comprehensive child and adolescent mental

health se~tces programs,

TECRHICaL C~


 --Paue 1. S-       ~

 We suggest the following paragzaph be added;

         “Community support in all stages of the planning,
         development, and implementation of school-based
         health care systems is critical to the success and




                                  ---F-77

                                                                         7



      longevity of such systems. Efforts must be a direct

      response to the policies, conatxaintst and concerns of

      the community * It is essential that active solici=tion

      of input and involvement of community and business
      leaders, haalth care and social semice  providers,  SChOOl
      administrators/kard Iuembers/teache=s? chu.rches~

      parents, and youth be obtained in this partnership

      effort.”

                 ,
--Paue     1. thd     D~~a= a D~


We suggest that the statement “ViBits for physicals and mental
health , . . .“ be modified to read as follows;
      “visits for physicalat acute illness, psychosocial?

      and mental health meads are the most common se=ices

      providd in SBHCS.”

- -J?aae   3* first
We suggest that the statement “Chief among these needs is

care. . . .“ be revised to read;�
      “Chief among these nSK$dS is care that is
      confidential, convenient, comprehensive, and age
      appropriate .“


We suggest the second paragraph under this section be revised
to read as follows:
      “Because the problems of adolescents are often
      complex and not strictly of a physical natuxe~
      diagnosis may be difficult. Treatment of these
      prableaaemay requir$ outside referrals for special

      needs o= auxiliary services. In medically

      undeserved or ruxal areas, such outside se=ices
      may not exist, leaving many adolescents unable to
         attain   needed care.     SBHCSwhich are dependent    upon
         outs~de referrals     for needed sezw~ces will not X
         successful    without  first  developing   a strategy fox the
         provision of these uemices.”             -
--                                  far Srhcu~-based h-      m   tersm4


,The source(s) for the information on the funding estimates                   ,

“should be referenced.





                                     H-9

    .-                          uarauxawh    uncles“=e
                             Ziql@th -Cers    m,
    .School-humd

              .-   The’third sentence should read that ‘In 1987” not 1988

                   the Centers for Disease Control and Prevention created

                   the Division of Molescent and School Health.

              --   We suggest that the last sentence be revised to read:

                   “In conjunction with the Carnegie Foundation, CDC is�
                   funding an initiative at the Columbia University

                   School of Health Policy which has bxought together a

                   national workgroup to identify barriers to

                   establishing SBHCS and to develop recommendations

                   for a core set of services for SBHCS.”



    We reconmmnd that the statement “In addf.tion, the H13S Office
    of oiseane Prevention . . . .“ be revised to reads

                   ‘In addition, the Interagency Committee on Schwl Health

                   (ICSH ] was created under the leadership of the lXIXS

                   Office of Disease Prevention and Health Promotion (ODPHP)

                   as a joint activ~ty of DHHS and the Department of
                   Education (DEd). StAff SUppOfi fOr this effOfi i8
                   provided by ODPI?Pand the Dad Office of Blumentary  and
                   Secondary Education. Representation from DXHS, DEd, the
                   Depar-ent of Agriculture,and a number of other Cabinet­

                   lwel departments and Federal   agencies is included on the

                   ZCS13
                       .“
     -- ~aue          8, first naraara ~

     We suggest the statement “Parental consent is the only . . .
      ‘“ be modified
         �           to read “Parental/guardian consent . . . .“
         .-              �
                                                   at school-bad   heal tia Camt@r’s
     ~

     We recoamend that the second paragraph under this section be

     modifLed to read%


                   “School-based health semices are provided by a
                   multidisciplinary team consisting of providers fmm
                   the fields of medicine, nursing, social work,
.                  psychology, health education, and nutrition.”

         -- me        9. Last D~ a
         We recommend that the statement “. . . a CDC-fundeci

         initiative. , . .“ be modified to read *A9 part of a CDC-





                                                   H-10

                                                                    9


funded initiative, Columbia University’s School of Health
Policy has convened thmm  meetings of the national workgroup
to recommend national standards for     SBHCS.”

.- ~e       13,   11 et “Leua 1~

We recommend that the statement “Respondents from two States

mention State Laws. . . .“ be revised to xead as follows:


          “Respondents from two States mentioned that State law=

          p=event SBHCS from being reimbursed by Medicaid fOr

          services provided by non-physician health care

          professionals (ite., nurse practitioners).”

.- cre19, fxst ret=-d@u!u
.

The last sentence of the first paragraph states that “. . .
the Department of Education, who have also taken an active
role in school-based health activiti~s.” We suggest   that the
-yord “activities” be changed to “centers” since SBFICSand

school-baaed health activities are not synonymous.

.-          20* Seco&   ball et


The Bu~eau of Primary ~ltQ   Care (BPHC) is inco~rectly cited
as tho Bureau of Primary Ca2Q. Also, both the BPHC and the
Bureau of Maternal and Child Health should be identif~ed as
paxt of the Health Resources and Services Administration

(HRSA),

--~w                    bum

     --   The first sentence states that “. . . HHS agencies can

          host several regional ox a national training conference

          on managed care . . . .“ we suggest the word “meettigs”

          be added after “regional” so the sentence r=ds “D s s

          can host several regional meetings or a national training

          conference. . . .!’.

     --   We suggest the remaindec of the paragraph be modified to

          read:

          “These meetings or conferences should include a focus on

          team building at the local level with an emphasis on
          community collaboration. participants should include~
          but not be limited to, repr~sentatives from managed care
          systems and SBHCS. Organizers should also brhg together

          State Z4edicaidand MCH officials, and representatives

          from Foundations, interest groups, and other aaencies to       ~
          discuss issues and efforts related to coordina~ion





                                   -TFii-­


                                                                    ——
                                                                      10


         between managed care and SBHCa, obstacles to

         coordination, and strategies for overcoming barriers to

         coordination. ”

--Pa9e      21.   ffiti   let * ‘first eentence

Given the effects of substance          abuse (including tobacco and
alcohol abuse) on health care costs, OXG may wish to consider
modifying “mental    health     aamices”    to mental health   and
aubatance (including      tobacco    and alcohol)   alnma prevention and
txeatmonc Se=icea.”
.-   Paae   21. foumlm bu.1et
                          1

We suggest this bullet be revised to read$  “Within PHS, the

Center for Mental Health Senices could expand their current

child studies that examine effective ways to deliver mental

health services to adolescents in school settings.”

--Paae      ~


Since coalition building is a crucial and integral part of the

implementation process for SBHC8, w. recoxmnendadding another

option for PHS, especially HRSA and CDC, through tholr gxant
prog=ams~ to support the capacity of the States to build the
linkages and infrastructures supportive of SBHCS within their
local communities.





                                    H-12

